.


Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




    THE BENEFICIARY COMPLAINT

     PROCESS OF THE MEDICARE

    PEER REVIEW ORGANIZATIONS





                      @ sEIW!CE~ “C?*
                 #’
                                   q
             $

         $                              JUNE   GIBBS BROWN
         -=2                            Inspector   General
         $
          %
          v+   $
           +-+                                 NOVEMBER 1995
             ‘b(fy~
              >                                 OEI-01-93-00250
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS
The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative investigations

of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment

by providers. The investigative efforts of 01 lead to criminal convictions, administrative

sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which

investigate and prosecute fraud and patient abuse in the Medicaid program.


                OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. This report was prepared in the Boston regional office
under the direction of Mark R. Yessian, Ph. D., Regional Inspector General, and Martha B. Kvaal,
Deputy Regional Inspector General. Project staff included:

BOSTON                                                 HEADQUARTERS

Joyce M. Greenleaf, Project Leader                     Barbara Tedesco, Technical Support Staff
Elizabeth A. Robboy

To obtain a copy of this report, call the Boston Regional Office at (617) 565-1050.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  THE BENEFICIARY COMPLAINT

   PROCESS OF THE MEDICARE

  PEER REVIEW ORGANIZATIONS




                    #A SERVICE$

               J$              Lj,

              +                  -f


         ~v                            JUNE   GIBBS BROWN
         :	                            Inspector   General
         s
         % ~
           %@+
             %’d~~                            NOVEMBER 1995
             >                                 OEI-01-93-O0250
             EXECUTIVE                           SUMMARY

PURPOSE

The purpose of this study is to assess the beneficiary complaint process of Medicare Peer
Review Organizations.

BACKGROUND

In April 1993, the Medicare Peer Review Organizations (PROS) altered the way they
ensure the necessity, quality, and appropriateness of care rendered to Medicare
beneficiaries. Previously, PROS did this by addressing individual clinical problems
identified primarily through reviewing random sample medical records. Now PROS aim
to improve the overall practice of medicine by analyzing patterns of care and outcomes
and by sharing information with the medical community. Under this approach, the PROS’
random sample record reviews--already reduced from earlier levels--are being completely
phased out. Thus, the PROS’ process for receiving and investigating complaints from
Medicare beneficiaries takes on added significance. It becomes a major vehicle through
which the PROS can identify and respond to individual instances of poor medical care. It
is vital, therefore, that the complaint process be functioning well.

This report is based primarily on data from surveys of 22 PROS representing 72 percent
of the beneficiary population in the country and aggregate data from the Health Care
Financing Administration (HCFA) reflecting all the PROS’ record review workload,
including complaints, during the fourth contract. Our findings are based on PROS’
experiences under the fourth contract with HCFA.

FINDINGS

Complaints to PROS can be an important source for identifying quality-of-care
problems.

F	     Between 10 and 15 percent of the complaints to all 53 PROS led to confirmed
       quality-of-care problems.

�	     Half the PROS in our sample identified health systems problems through
       complaints.

Medicare beneficiaries are often unaware of their oppotinities   to complizin to PROS
about the quality of their medical care.

�	     Seventy-seven percent of Medicare beneficiaries did not even know about the
       PROS, according to a recent national OIG survey.




                                             i
�	     Thirteen of the 22 PROS (59 percent) in our sample cited difficulties in making
       beneficiaries aware of the complaint process.

As it works now, the complaint process has some flaws that undermine its effectiveness.

F	     Lack of Substantive Responses. The Federal confidentiality regulations preclude
       PROS from sharing the results of their investigations with the beneficiaries without
       physicians’ consent.

�	     Few Complaints. The PROS received too few complaints to identify patterns of
       poor care by individual physicians and hospitals.

�	     Lengthy Process. Beneficiaries can wait a long time for the results of the PROS’
       complaint investigation.

RECOMMENDATIONS

The complaint process needs to be working well in order for HCFA to achieve its stated
mission. Below we offer our recommendation in three parts, one part to address each
flaw we identified. It also addresses the lack of awareness about the PROS’ complaint
process that we found among beneficiaries.    If implemented, our recommendation would
result in a complaint process that is more effective and more accountable to beneficiaries.
Further, it would contribute to HCFA’S mission and to goals from its strategic plan.

The HCFA should work with PROS to identify cost-effective ways to correct the jlaws in
the complaint process. Toward that end, HCFA should:

F	     Require PROS to respond substantively to the complainant.       l%e HCFA should
       give this the highest priority.

A substantive response would require a PRO to describe: (1) what it did to investigate the
complaint, (2) what the investigation revealed, including whether a quality-of-care
problem was confirmed and, if so, the nature of the problem, and, (3) if a quality-of-care
problem was confirmed, what action the PRO took based on it.

�	     Identifj cost-effective ways to enhance Medicare beneficiaries’ awareness of
       PROS and the complaint process.

The HCFA should allow PROS more flexibility in conducting their outreach activities.
Such flexibility could allow PROS to survey local beneficiaries, target outreach to family
members of beneficiaries as well as pre-retirement groups, and even cultivate new
outreach strategies in the medical community. The HCFA should also identify benchmark
practices or promising approaches to informing beneficiaries of the complaint process.
The recent work of HCFA’S Beneficiary Communications Steering Committee and others
could contribute to this effort.



                                              ii
F      Streamline the complaint process.

The HCFA should search for ways in which the process of investigating and responding to
complaints could be expedited. It could benefit by examining ways in which other bodies
conduct reviews for complaints about medical care. It could also identify and share
promising approaches taken by individual PROS to streamline the complaint process.

COMMENTS ON THE DRAFT REPORT

We solicited and received comments on the draft report from the Health Care Financing
Administration (HCFA), the American Medical Peer Review Association (AMPRA), the
American Medical Association (AMA), the American Association of Retired Persons
(AARP), and the Coalition for Consumer Protection and Quality in Health Care Reform
(hereafter referred to as the Coalition). We include the complete text of the detailed
comments in appendix E. We also received a comment of concurrence from the Assistant
Secretary for Planning and Evaluation. Below, we summarize the major comments of the
respondents on our three recommendations and then, in italics, summarize our responses.
In the report, we also made a number of minor technical corrections in response to
respondent comments.

The HCFA took our first recommendation on substantive responses to complaints under
advisement, expressing concerns about balancing such responses with the due process
rights of providers. The AMPRA and the AMA expressed general support for substantive
responses but also stressed the need to balance this with the due process rights of
providers. The AARP and the Coalition both expressed strong support for our
recommendation. With respect to concerns raised by HCFA, AMPRA, and the AA4A, we
understand the dlficul~ of achieving a workable balance between the principles of the
Health Care Quality Improvement Program and the basics of an e~ective complaint
process. However, we maintain our commitment to the point made in our report: that
without a substantive response to bene~ciaries, it is not likely that HCFA can develop a
complaint process that is credible to beneficiaries.

The HCFA and the other respondents all agreed with our recommendation to enhance
beneficiary awareness of the complaint process.

The HCFA expressed concern that our recommendation to streamline the complaint
process might result in a less complete or conscientious review. All the other respondents
agreed opportunities exist to streamline the process. We recognize oppotiunities to
streamline may be limited but maintain that such oppotiunities do exist. Thus, we suggest
that HCFA reconsider this recommendation. We believe that some streamlining of the
complaint process is essential to achieving a more effective process.




                                            .. .
                                            111
                      TABLE                 OF        CONTENTS

                                                                                                     PAGE


EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS


     Complaints Are an Important Source for Quality-of-Care Problems                   . . . . . . . . . . 3


     Beneficiaries Often Unaware of Their Opportunities to Complain to PROS . . . . . . 5


     Complaint Process Has Flaws . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6



RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9


COMMENTS ON THE DRAFT REPORT                            . . . . . . . . . . . . . . . . . . . . . . ...11


APPENDICES


A: Sources of Record Reviews            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   A-l


B: Summary of the Fee-For-Service Complaint Timeframes . . . . . . . . . . . . . . . . B-1


c: Methodology         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C-1


D: Random Sample and Complaint Review for all PROS . . . . . . . . . . . . . . . . . D-1


E: Complete Comments onthe Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . E-1


F: Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. F-l

                           INTRODUCTION

PURPOSE

The purpose of this study is to assess the Medicare Peer Review Organizations’
beneficiary complaint process under the fourth contract period.

BACKGROUND

Peer Review Organizations and the Health Care Quality Improvement Program

In April 1993, the Medicare Peer Review Organization (PROS) began implementing their
fourth contracts with the Health Care Financing Administration (HCFA). These contracts
marked major changes in the PROS’ aims and operations. Prior to the fourth contracts,
PROS had sought to ensure the necessity, quality, and appropriateness of care rendered to
Medicare beneficiaries by identifying and addressing individual clinical problems. They
did this through reviewing medical records, which at times represented as much as
15 percent of Medicare hospital discharges.

Since 1993, PROS have airned to improve the overall practice of medicine by analyzing
patterns of care and outcomes and by sharing information with the medical community.
The HCFA refers to this initiative as the Health Care Quality Improvement Program
(HCQIP). The HCQIP rests heavily on the precepts of continuous quality improvement,
which hold that it is far more important to improve the overall performance levels even
slightly than it is to identify and correct poor performers at the margin. This emphasis
reflects the kind of redirection called for by the Institute of Medicine in its comprehensive
assessment of Medicare quality assurance efforts. 1

Thus, PROS’ operational responsibilities are much different than in the past. They have
reviewed far fewer medical records. For at least part of the fourth contract period, the
PROS have conducted record reviews on a 5 percent inpatient random sample, though by
October 1995 that sample will be completely eliminated.2 Appendix A displays the
sources of record reviews during the early implementation of the fourth contract. The
HCFA still requires the PROS to conduct record reviews in certain instances under the
fourth contract. These instances include quality-related beneficiary complaints.3

The Complaint Process

The Omnibus Budget Reconciliation Act of 1986 (Public Law 99-509) requires PROS to
review all written, quality-related complaints received from Medicare beneficiaries.4

Once the PRO receives a quality-related beneficiary complaint in writing, it must review
the appropriate medical records. The PRO manual requires that each task in investigating
the complaint be completed within certain timeframes (see appendix B for a complete
review of the timeframes involved). Once all reviews and re-reviews are completed, the


                                              1
PRO invites the provider and/or physician to comment on the case. It also seeks consent
from the physician to allow information about the case to be disclosed back to the
beneficiary, as required in the confidentiality regulations,5

The Significance of the Beneficiary Complaint Process Under the Fourth Contract

With less review under the fourth contract, the beneficiary complaint process has become
especially important to PROS’ ability to identify questionable care. The process represents
a key safety valve for beneficiaries, their families, and advocates, who can register
complaints against individual physicians and hospitals. The HCFA recognizes the
heightened significance of the complaint process and includes it in three of the four
elements it uses to define beneficiary protections .6 In its vision statement describing the
successful PRO in 5 years, HCFA suggests that “[PROS] will have earned a position of
trust in the eyes of plans, providers, and practitioners and beneficiaries” and that this
public trust will be “based on responsive investigation of complaints and protection of
consumers.”7 Thus, it is important that the complaint process functions well.

METHODOLOGY

We relied on three primary sources: (1) surveys of officials from 22 PROS, (2) aggregate
data from HCFA reflecting all PROS’ record review workload, and (3) a national survey
of Medicare beneficiaries. The 22 PROS represent 72 percent of the beneficiary
population in the country. We chose those 17 PROS in States with the largest beneficiary
populations and 5 of those with the lowest beneficiary populations. (See appendix C for a
more detailed discussion of our methodology.)

Our findings are based on PROS’ experiences under their fourth contract with HCFA.

Hereafter, we use the term complaints to refer to those quality-related complaints made to
PROS by or on behalf of beneficiaries that prompted the PROS to review medical records.

We conducted our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                              2

                                  FINDINGS


Complaints to PROS can be an important source for identifying quality-of-care
problems.

b	     Between 10 and 15 percent of the complaints to all 53 PROS led to contkmed
       quality-of-care problems. In contrast, less than 1 percent of the random sample
       record reviews led to such problems. Proportionally, then, complaints have been a
       richer source of quality-of-care problems, even though the majority of such
       problems have emerged from the random sample record reviews.

Data from our sample of 22 PROS confirm the value of complaints as a source of
information about quality of care. Between 8 and 14 percent of complaints led those
PROS to identify and confirm quality-of-care problems.8 All but one PRO in our sample
confirmed least one quality-of-care problem through a beneficiary complaint.9

The quality-of-care problems identified through complaints involved both physicians and
hospitals. About two-thirds of all the quality-of-care problems the 53 PROS identified
involved physicians and one-third, hospitals. In our sample of 22 PROS, we found about
half the problems involved physicians and half, hospitals.

The importance of complaints as a source of confirmed quality problems is magnified
when we consider just how few record reviews are triggered by complaints. Just
0.1 percent of all PRO record reviews were conducted due to complaints (see appendix
D). Yet the quality-of-care problems stemming from those reviews accounted for
2 percent of all problems identified by the PROS under the fourth contract. As the
random sample reviews continue to decrease, however, complaint reviews will constitute a
larger share of the PROS’ remaining review work.

�	     Half the PROS in our sample identified health systems problems through
       complaints. These systemic issues included such problems as beneficiaries being
       prematurely discharged from hospitals and lapses in their treatment during transfers
       among different care settings.

Identi@ing systemic causes of quality-of-care problems is clearly a focus of the PROS
under their fourth contract. In our sample, 11 PROS (10 from the high-population and
1 from the low-population stratum) reported having identified 17 instances of health
systems problems through their investigations of complaints. The systems problems
included: four systems related to discharge planning; three to communications; two to
transfers; and eight to issues such as patient restraints, protocols for pressure ulcer
prevention, and lack of timely reporting of test results, among others. 10

A health systems problem identified by one PRO, for example, concerned the proper
placement of feeding tubes. Based on a complaint, this PRO learned that a beneficiary
suffered complications due, at least in part, to being fed through a feeding tube inserted


                                              3
into a lung. No protocol existed to confh-m the tube’s proper placement through x-ray or
other imaging. The PRO alerted facilities in its area and its own reviewers to the
potentially catastrophic consequences of improper tube placement.

F	     Sixteen of the 22 PROS (73 percent) in our sample rated the complaint process as
       critical to their ability to protect beneficiaries from individual instances of poor
       care.

Officials from one PRO with whom we spoke pointed out that the opportunity to complain
is an important safeguard to identifying problems that will no longer be caught through the
random sample review. Officials from another PRO noted that identifying even one
quality-of-care problem through a complaint can protect many other beneficiaries from
facing the same problem. Others pointed out that the experience of complaining, could,
in fact, be cathartic for beneficiaries.

The HCFA also recognizes the importance of the complaint process, as reflected in an
internal memorandum on beneficiary protection:

       The purpose of the beneficiary protection program is to reduce the likelihood of
       harm, from both systemic causes and from individual incompetent or impaired
       providers and practitioners. Additional protection will be afforded by addressing
       specific instances of poor care identified through beneficiary complaints. 11

The extent to which PROS have referred complaints to other parts of the medical
community, known as joint referrals, underscores the importance of their roles within
those communities. The PROS make referrals when complaints raise concerns beyond the
PROS’ authority, such as concerns about the cleanliness of a facility or the qualifications
of its staff. In our sample, 19 of the 22 PROS referred some of the complaints they
investigated to others in the medical community. Overall, these PROS referred at least
17 percent and possibly as many as 29 percent of all the complaints they received.12 As
shown in figure 1, PROS referred the majority of complaints to fiscal intermediaries
(33 percent), followed by HCFA project officers (25 percent), and survey and certification
agencies (13 percent). 13




                                              4

                                               Figure 1
      Complaints Jointly Referred by PROS Under the Fourth Contract


               HCFA Proj

                                                                    F1/Carrier(33%)




                                                                       HMO(2%)

                                                                    spital (i’%)

                                                         Survey & Certifkation Agency (13%)


       Note N=560 complaints. These represent joint referrals for 19 of the 22 PROS in our sampie.
       Complaints may be jointly raked   to more than one entity.
       Sourcw HHS Offiea of inspeetor Generai Survey of 22 PROS, January 1995




In addition to making joint referrals to others, the PROS in our sample reported
occasionally receiving referrals from members of the medical community. Most often,
these referrals came from physicians, but some also came from hospitals and State
medical boards. Not one PRO in our sample, however, had explicit policies to encourage
referrals from either physicians, hospitals, or medical boards. While these referrals were
few in number, the PRO officials described them as solid and often including specific
details. 14

Medicare beneficiaries are often unaware of their oppo~nities               to complain to PROS
about the quality of their medical care.

F	     Seventy-seven percent of Medicare beneficiaries did not even know about the
       PROS, according to a recent national OIG survey.

F	     Thirteen of the 22 PROS (59 percent) in our sample cited difficulties in making
       beneficiaries aware of the complaint process.

In accord with their contracts, the PROS in our sample have conducted outreach activities
aimed at increasing beneficiaries’ awareness of their rights under Medicare and of their
opportunities to complain about quality to the PROS. They reported undertaking roughly
the same range of outreach activities (see the box on the next page).



                                                   5

Twenty of the 22 PROS judged their
outreach activities critical. When asked
which outreach activities lead to the most
complaints, PROS identified local
presentations more often than any other
activity. 15 Yet reaching beneficiaries
through such presentations has presented
some difficulties. In many large States,
the beneficiaries are dispersed and thus
difficult to reach. 16 Many beneficiaries
are unable to attend local presentations due
to frailty, weather conditions,
inconvenience, or lack of knowledge about
the presentations.

Successfully reaching beneficiaries not
involved in local senior centers presents
challenges to the PROS. Although many
PROS rely in part on direct mailings to
beneficiaries, some questioned their value,
because beneficiaries are often inundated
with reading materials. And while
indications from HCFA suggest that PRO
outreach activities have become an
increasingly important part of the work
that PROS do, resources for those
activities remain limited.

As it works now, the complaint process has ,some jlaws that undermine its effectiveness.

�	     Lack of Substantive Responses. The Federal confidentiality regulations preclude
       PROS from sharing the results of their investigations with the beneficiaries without
       physicians’ consent. Thirteen of the 22 PROS (59 percent) in our sample judged
       these regulations to be a major barrier to a more effective complaint process.

The confidentiality regulations hinder the PROS’ ability to be responsive to beneficiaries
who complain. These regulations require the PROS to gain the consent of physicians
before disclosing information to the beneficiary. Without that consent, PROS cannot
reveal the results of the record reviews and must therefore respond in generalities. The
box on the next page presents one PRO’s response to a beneficiary complaint in which the
PRO did in fact confirm a physician problem, but the physician failed to consent to
disclosure. These restrictions frustrate the PROS, and, in the words of one PRO official,
“leave beneficiaries feeling cheated. ”




                                               6

When the physician does consent to
disclosure, theinformation released by the
PRO is still limited in some important
ways. The response would likely exclude
any PRO actions directed to the physician,
such as education or referral to the
hospital quality assurance committee. The
box below presents part of such a
response.

According to the complaint data for the
22 PROS in our sample, physicians
consented to disclose information to the
beneficiary 45 percent of the time.17
However, when the complaint involved a
contlrmed physician quality-of-care
problem, physicians consented 13 percent
of the time. Some PROS appear more
successful than others in gaining physician
consent for disclosure. For example, one
PRO in our sample gained physicians’
consent for 90 percent of all complaints
for which it requested consent and for
50 percent of the complaints involving
confirmed physician problems. Thirteen
of the 22 PROS in our sample reported
that they had yet to gain consent for any
complaint involving a confirmed physician
quality-of-care problem. 18


�	     Few Complaints. The PROS received too few complaints to identify patterns of
       poor care by individual physicians and hospitals. In fact, 9 of the PROS
       (41 percent) judged lack of beneficiary complaints to be a major barrier to their
       ability to identify quality-of-care concerns.

During our telephone interviews, PRO officials often noted that while they judge the
complaint process as critical to their ability to protect beneficiaries, they lack the volume
of complaints to identify patterns emerging from them. Under the HCQIP, identifying
patterns is an important prerequisite to taking any action directed toward a physician or a
hospital based on quality-of-care problems. With PROS receiving so few complaints, the
likelihood of identifying such patterns is small. The PROS in our sample received
between 8 and 164 complaints per million beneficiaries. Even when we accounted for the
length of time these PROS have operated under the fourth contract, the number of
complaints remained low. 19



                                              7

Overall, complaints have accounted forabout O.lpercent oftie PROs' review caseload.
The bulk of their review caseload comes from the 5 percent random sample (about
72 percent) .20 And the low volume of complaints coupled with the reduction in record
review overall weakens the PROS’ ability to identify quality-of-care problems, and thus
patterns.

We noted previously that beneficiaries are often unaware of the PROS and that PROS
acknowledge difficulties in reaching beneficiaries. The low volume of complaints may
also be related to other factors as well. For example, half the PRO officials with whom
we spoke identified beneficiaries’ reluctance to file a complaint as a major barrier and
nearly half as a minor barrier. These officials noted that beneficiaries fear reprisals from
the medical community on which they rely and also respect. This reluctance can be
exacerbated in rural areas where beneficiaries have fewer choices of where to receive their
care. Another factor that may account for the low volume of complaints is that
beneficiaries can complain to others, such as State medical licensure boards, ombudsmen,
hospitals, or their own physicians, rather than the PROS. But how often they complain to
these other entities is unknown. Nothing in the PRO manual, however, directs the PROS
to encourage beneficiaries to lodge their complaints with all the possible entities.

�	     Lengthy Process. Beneficiaries can wait a long time for the results of the PROS’
       complaint investigation. Fifteen of the PROS (68 percent) judged the length of the
       process to be a major barrier to a more effective beneficiary complaint process.

The complaint process involves multiple steps, ending with the PROS’ final responses to
the beneficiaries who complained. Each step has a specific timeframe for completion, and
these make it difficult for PROS to respond quickly (see appendix B for the complaint
timeframes). If a complaint involves no confirmed quality-of-care problem, the process
should last a maximum of 110 days. However, when the PRO identifies a quality-of-care
problem, the process can take up to 220 days--25O if a re-review is requested. In one
complaint we reviewed, which involved both a confirmed quality-of-care problem and a
re-review, the beneficiary received the PRO’s final response 266 days after the PRO
received the complaint.

The PRO officials who cited length of the process as a major barrier reported being
constrained by it. They identified with the beneficiaries’ frustrations and suggested that
the length could discourage beneficiaries from complaining to the PRO.

Many PRO officials with whom we spoke are trying, where possible, to streamline the
process, or at least to better prepare beneficiaries for the long wait. For example, one
PRO routinely combines its request for consent to disclosure with the physician’s
opportunity to request a re-review, thereby shaving as many as 60 days. Another PRO
employs a case management approach, so that beneficiaries have a single contact person
throughout the process. Other PROS inform the beneficiaries about the timeframes when
they complain. Some correspond routinely with beneficiaries throughout the process.




                                              8

                    RECOMMENDATIONS

The complaint process needs to be working well in order for HCFA to achieve its stated
mission of serving “beneficiaries effectively. “21 Below we offer our recommendation in
three parts, one part to address each flaw we identified. It also addresses the lack of
awareness about the PROS’ complaint process that we found among beneficiaries. If
implemented, our recommendation would result in a complaint process that is more
effective and more accountable to beneficiaries. Further, it would contribute to HCFA’s
mission and to goals from the strategic plan that call for HCFA to “act on [program]
weaknesses to assure they respond to beneficiaries’ needs. “22

The HCFA should work with PROS to identijj cost-effective ways to correct the flaws in
the complaint process. Toward that end, HCFA should:

F	     Require PROS to respond substantively to the complainant.       The HCFA should
       give this the highest priority.

A substantive response would require a PRO to describe: (1) what it did to investigate the
complaint, (2) what the investigation revealed, including whether a quality-of-care
problem was confirmed and, if so, the nature of the problem, and, (3) if a quality-of-care
problem was confirmed, what action the PRO took based on it.

Many physicians and hospitals are likely to have concerns about providing such feedback
to those who have complained to the PROS. But at a time of increasing consumer
involvement in patient-care decisions, beneficiaries (and their families) are unlikely to
have confidence in a process that fails to afford them substantive feedback on how the
PROS responded to their complaints.

To facilitate substantive responses, HCFA could amend the PRO regulations to eliminate
the requirement that physicians consent to disclosure before providing feedback to
complainants. It has been considering such a revision for some time. Another, more
expeditious approach would be for HCFA to issue contract modifications or manual
instructions calling for substantive responses to complainants. This approach would
require an interpretation that a regulatory amendment is unnecessary because of HCFA’S
existing statutory authority that allows disclosure “to the extent that may be necessary to
carry out the purposes of” the PRO program.

F	     Identi! cost-effective ways to enhance Medicare beneficiaries’ awareness of
       PROS and the complaint process.

The HCFA should allow PROS more flexibility in conducting their outreach activities.
Such flexibility could allow PROS to survey local beneficiaries, target outreach to family
members of beneficiaries as well as pre-retirement groups, and even cultivate new
outreach strategies in the medical community. Any efforts in this realm could tie in
closely with HCFA’s consumer information strategy.


                                              9
The HCFA should also identify benchmark practices or promising approaches to

informing beneficiaries of the complaint process. The recent work of HCFA’S Beneficiary

Communications Steering Committee, the Communications Network sponsored by the

American Medical Peer Review Association, and the Citizen Advocacy Center could all

contribute to this effort.


�      Streamline the complaint process.

The HCFA should search for ways in which the process of investigating and responding to
complaints could be expedited. It could benefit by examining ways in which other bodies
conduct reviews for complaints about medical care. It could also identify and share
promising approaches taken by individual PROS to streamline the complaint process. A
benchmarking effort of this kind would be in concert with the PROS’ overall emphasis on
continuous quality improvement.




                                           10

COMMENTS                      ON       THE         DRAFT             REPORT

We solicited and received comments on the draft report from the Health Care Financing
Administration (HCFA), the American Medical Peer Review Association (AMPRA), the
American Medical Association (AMA), the American Association of Retired Persons
(AARP), and the Coalition for Consumer Protection and Quality in Health Care Reform
(hereafter referred to as the Coalition). We include the complete text of the detailed
comments in appendix E. We also received a comment of concurrence from the Assistant
Secretary for Planning and Evaluation. Below, we summarize the major comments of the
respondents on our three recommendations and then, in italics, offer our responses. In the
report, we made a number of minor technical corrections in response to respondent
comments.

RECOMMENDATIONS FROM THE DRAFT REPORT

The HCI?A should work with the PROS to identify cost-effective ways to correct the jlaws
in the complaint process. Toward that end, HCFA should:

F	     Require the PROS to respond substantively to the complainant. This is the
       standard to which the Joint Commission on the Accreditation of Health Care
       O~ani@”ons holds hospitals accountable. The HCFA should give this the
       highest priori~.

The HCFA took this recommendation under advisement, expressing concerns about
balancing such responses with the due process rights of providers. The AMPRA and the
AMA expressed general support for substantive responses but also stressed the need to
balance this with the due process rights of providers. The AMA specified in detail the
due process elements that it favors and expressed a preference for a regulatory approach
to any changes in the physician disclosure process. The AMPRA questioned the accuracy
of our reference to a standard from the Joint Commission on the Accreditation of Health
Care Organizations. The AARP and the Coalition both expressed strong support for our
recommendation. The AARP favored implementing the recommendation through contract
modifications rather than through regulation. The Coalition expressed frustration with the
lack of meaningful responses and questioned the PROS’ ability to represent Medicare
beneficiaries without a much improved complaint process.

With respect to concerns raised by HCFA, AA4PRA, and the AMA, we understand the
difficulty of achieving a workable balance between the principles of the Health Care
Quali~ Improvement Program and the basics of an e~ective complaint process. However,
we maintain our commitment to the point made in our report: that without a substantive
response to beneficiaries, it is not likely that HCFA can develop a complaint process that
is credible to beneficiaries.

We appreciate AMPRA pointing out the out-of-date standard from the Joint Commission,
and we dropped the reference j70m the recommendation. The Commission’s 1996 manual


                                            11
calls for the resolution of complaints and recognizes the rights of patients to include
“unrestricted access to communication. “

F	     Identifl cost-effective ways to enhance Medicare beneficiaries’ awareness of
       PROS and the complaint process.

The HCFA and the other respondents all agreed with this recommendation.

While we welcome the widespread support for this recommendation, we stress that
increased beneficiary outreach sends a mixed message if it is not accompanied by refom
that lead to more substantive responses to complaints. Increased outreach is likely to
raise beneficiaries’ expectations regarding complaint resolution. Those expectations could
be largely unmet without addressing ourjirst recommendation.

F      Streamline the complaint process.

The HCFA expressed concern that streamlining the complaint process might result in a
less complete or conscientious review. It suggested that beneficiaries be made aware of
the timeframes involved rather than streamlining the process. All the other respondents
agreed opportunities exist to streamline the process. The AMPRA and the AMA
suggested some steps of the review process can be performed concurrently, thereby
streamlining the process.

We recognize opportunities to streamline may be limited but maintain that such
opportunities do exist. Thus, we suggest that HCFA reconsider this recommendation. We
believe that some streamlining of the complaint process is essential to achieving a more
efiective process.




                                              12

                           APPENDIX                                       A

SOURCESOF RECORDREVIEWS DURINGTHE EARLY IMPLEMENTATION
                 OF THE FOURTHCONTRACT
       (FOR REVIEWSCOMPLETEDTHROUGHJUNE 30, 1994)


                                                                              Number
      Source of Record Being Reviewed                                       (Percent) of
                                                                          Inpatient Record
                                                                             Reviews
     Random Sample Record Reviews                                          381,875 (72.3%)
     Mandatory Reviews, including
     ;omplaints”                                                             44,575 (8.4%)
     Vliscellaneous Reviews~                                               101,681 (19.2%)
     rOTAL                                                                 528,541’ (100%)
     ~OIXS:
         N=53         PROS.

       PRO mandated reviews include beneficiary complaints and records flagged for the following
     tasons: assistmrt at cataract surgery, Medicare code editor, hospital adjustment, referral from tfre
     iserd intermediary or regional office, and hospital-issued notices of noncoverage.

      Includes records selected for the following reasons: specialty hospital, DRG 468, day and cost
     mtliers, unifnrm clinical data set and cooperative cardiovascular project, focussed review selection,
     ntcrvening we, fiscal intermediary prepayment rejcet, intensified review, ventilator-dependent
     mit, deemed admission, and nther.

      Frequency missing =410.

     IOURCE:     HCFA PROD3 database.


     !NALYSIS:     HHS Ofticc of Inspector General.




                                                  A-1

                                     APPENDIX                                      B

SWmY               OF THE FEE-FOR-SERVICECOMPLAINTRmmw                                                 Tmmmmms


                                                                                      Number of               Cumulative
                                                                                        Days                    Days
Acknowledge complaint                                                                        15                       15
Receive medical records                                                                     30*                       45
Complete Review                                                                              30                       75
If no quality concern:

           Seek physician consent and                                                         30                      105
           provider/physician comments; and
           provide notice required by 476.132(a)(2)

           Respond to complainant                                                              5                      110
If potential quality concern:

           Provide opportunity for discussion                                                 30                      105
           Confirm/resolve quality concern                                                    20                      125
           Provide opportunity for re-review                                                  60                      185
If re-review not requested:

           Seek physician consent and                                                         30                      215
           provider/physician comments; and
           provide notice required by 476.132(a)(2)

           Respond to complainant                                                              5                      220
If re-review requested:

           Resolve/confirm quality concern                                                    30                      215

           Seek physician consent and                                                         30                      245
           provider/physician comments; and
           provide notice required by 476.132(a)(2)

            Respond to complainant                                                             5                      250
x If documentation is incomplete or illegible, allow an additional 15 days for submission of requested information.
Source   HCFA, Peer Review Organization Manual, p, 537,




                                                             B-1

                              APPENDIX                    C

                                      METHODOLOGY

We collected the data presented in this report primarily through telephone interviews and
mail surveys of 22 PROS. We chose these PROS through a stratified sample in which we
arrayed PROS according to the number of Medicare beneficiaries in each State (high and
low beneficiary population). We chose all 17 of the PROS for States in the high-
population stratuml and a random sample of 5 PROS for States in the low-population
stratum.z The PROS in our sample represent 72 percent of the Medicare beneficiary
population in the country. The response rate for both the telephone interviews and the
mail survey was 100 percent.

We sent out a mail survey in which we asked PROS for specific data under the fourth
contract. The data included how many complaints triggered a record review, how often
physicians consented to disclosure for both confirmed and non-confirmed problems, cases
that were referred elsewhere, and sources for confirmed quality-of-care problems.

We supplemented the mail survey with more in-depth telephone interviews. For the
interviews, we designed and pretested a discussion guide with questions about identifying
quality-of-care problems, the complaint process, outreach activities, barriers to identifying
individual quality-of-care problems, and barriers to establishing a more effective
beneficiary complaint process, among others.

We also drew on data from HCFA’S PROD3 data base (which includes the results of all
inpatient record reviews) and PROD5 data base (which includes the results of all physician
reviews). Through these we obtained data on the number and sources of confhrned
physician and hospital quality-of-care problems for all PROS for reviews completed under
the fourth contract through June 30, 1994.3 Our tests of the data revealed that 10 PROS
reported no beneficiary complaints when, in fact, they had received such complaints.




    1 These included the following States (listed in descending order of beneficiary
population): California, New York, Florida, Pennsylvania, Texas, Ohio, Illinois,
Michigan, New Jersey, North Carolina, Massachusetts, Missouri, Indiana, Georgia,
Virginia, Wisconsin, and Tennessee.

    2 These included the following States (listed in descending order of beneficiary
population): New Mexico, Utah, Montana, South Dakota, and Delaware.

    3 In analyzing our data on complaints and confirmed quality-of-care problems, we
report the most conservative interpretations. We chose this approach to avoid double
counting complaints that resulted in confirmed problems with both a physician and a
hospital.


                                            c-1
Nevertheless, when these data are viewed in the context of our telephone interviews and
survey data, we believe the findings and recommendations in this report are valid.

We also relied on data from a beneficiary survey conducted by the Office of Inspector
General (OIG) in the summer of 1994. The question relevant to our study sought to
determine the level of beneficiaries’ awareness of PROS. The OIG mailed this survey to a
randomly selected national sample of 1,299 Medicare beneficiaries, of which 20 were
either nondeliverable or mailed to beneficiaries who had died. A total of
1,002 beneficiaries returned completed surveys, a response rate of 78 percent. The
survey results presented in this report have a margin of error of 3.5 percent at the
95 percent confidence level.

To strengthen our understanding   of the complaint process, we reviewed the PRO manual
and statutory and regulatory requirements concerning the complaint authority,
confidentiality, and disclosure.




                                          c-2
                                         APPENDIX                                   D

            RANDOM SAMPLEm   COMPLAINTREVIEW FOR ALL PROS
                       UNDERm-m Fomm  Comwx
       FOR INPATIENTIWcow Rmmws COMPLETEDTHROUGHJum 30, 1994


                                                                          Number of Records                   Percentage of
                                                                           with a Confirmed                   Records with a
Source of Records                    Number of Record                      Quality Problem                      Confirmed
                                        Reviews                               Involving a                        Problem
  Being Reviewed                                                           Physician and/or                      Concern
                                                                                Hospital
Random Sample

Record Review                    381,875 (72.3%)
                        4,255 (70.9%)                       0.7% to 1.1%
Beneficiary

Complaints                       737       (o. 1%)
                       108      (1.8%)                    9.8% to 14.7%
NOTE: N =53 PROS. The number of beneficiary complaints represented here should be considered conservative because of reporthrg flaws.
Ten PROS reported no beneficiary complaints when in fact they received such eomplairrts under the fourth contract.

SOIJHCE HCFA PROD3 and PROD5 data bases.
ANALYSIS: HHS Office of Inspector General.




                                                               D-1

                            APPENDIX                  E




In this appendix, we present in full the comments from the Health Care Financing
Administration, the berican    Medical Peer Review Association, the American Medical
Association, the American Association for Retired Persons, andthe Coalition for
Consumer Protection and Quality in Health Care Reform. Inaddition to receiving
comments from the groups listed, we also received a comment of concurrence from the
Assistant Secretary for Planning and Evaluation.




                                         E-1

                           —
              . ,,. ”l,,   ,
         +*
    ,­




:Jg
.
                                      DEP.\RT.MENT OF HEALTH & HU,IIAN SERVICES                        Health   Care Financing   Admlnlstratlc
                                                                                                                          .
-,
 .,
         ‘* [w,,.
             >                                                                                         The Administrator
                                                                                                       Washington,    D.C.   20201




                               DATE:          SEP     11995

                               TO:	          June Gibbs Brown
                                             Inspector General                       +

                                                                             &u!!!
                               FROM:         Bruce C. Vladec           &L
                                             Administrator
                                                               %
                               SUBJECT:	     Office of Inspector General Draft Report: “Beneficiary Complaint Process
                                             of the Medicare Peer Review Organizations (PROS)” (OEI-O 1-93-00250)


                               We reviewed the above-referenced report which assesses the beneficiary compkint
                               process of Medicare PROS. Attached are our comments on the report findings.

                               Thank you for the opportunity   to review and comment on this report.

                               -Attachment
              Comments of the Health Care Financing Administration (HCFA\

                   on OffIce of Insuector General (OIG) Draft Reuort:

    Beneficiary Comnlaint Process of the Medicare Peer Review Orm.nizations       (PROS)

                                   (OEI-01-93-00250)



 OIG Recommendation     1

HCFA should work with PROS to identi& cost-effective ways to correct the flaws in the
complaint process. Toward that en~ HCFA should: require PROS to respond
substantively to the complainant. This is the standard to which the Joint Commission on
the Accreditation of Health Care Organizations holds hospitals accountable. HCFA
should give this the highest priority.

HCFA Response

HCFA will take this recommendation    under advisement and tier       analyze its options.
Physician consent is a complex and sensitive issue, entailing the balancing of physician
due process and privacy interests with the need for meaningful feedback to beneficiaries..

We are also sensitive to the issue of fll disclosure to the beneficiaries as it may impede
the cooperative exchange of information between physician and PRO which enhances the
peer review process. A provider and/or practitioner might be far willing to less volunteer
of information which might directly or indirectly place them in jeopardy of civil
malpractice actions.

OIG Recommendation     2

HCFA should identify coj.t-effective ways to enhance Medicare beneficiaries’    awareness
of PROS and the complaint process.

HCFA Resuonse

HCFA concurs. Our OffIce of Beneficiary Services and Health Standards and Quality
Bureau will work together on beneficiary outreach activities which will enhance
beneficiary awareness of the complaint process. The beneficiary complaint process is an
important and complex issue, affecting beneficiaries, providers, physicians, and managed
care plans. We intend to meet with representatives of beneficiary, provider, physiciw
and managed care organizations in developing a regulation that will improve this process.
Page 2


In addition to regulatory changes, it wilI be necessary for our outreach program to help

beneficiaries understand that an effective peer review process may limit fid.1disclosure.

We will consider the complainant’s right to have information about hirnseWherseK and

the plan’s, provider’s, and practitioner’s rights to accurate informatio~ while maintaining

personal privacy, to ensure a balanced approach.


Recommendation     3


HCFA should streamline the complaint process.


HCFA Resnonse


We are concerned that attempts to expedite the process may actually       result in less than

complete or conscientious review. The timefiarnes were established        to allow adequate

time for all parties to consider and take appropriate action including,   where necess~,

dialogue. We, therefore, are concerned about shortening the process,       particularly in the

way cited in the report.


Rather than shortening the process, we would suggest making the beneficial      aware of

the timeframes and the necessity of the length of the process as part of an improved

information process.


In revising the PRO process, HCFA and the OIG could examine the End Stage Renal

Disease Network Grievance/Complaint  policy which apparently works well.


Additional Comments


We are concerned about another aspect of the complaint process which has not been

addressed in the OIG report. We are concerned that current policy may not eliminate

barriers for minority and disabled beneficiaries. There should be studies to determine

whether complaints filed with PROS are submitted at at least the same rate from minority

and disabled beneficiaries as from the general Medicare population. The HCFA strategic

plan requires us to focus attention on eliminating barriers to special needs populations.





Revised:ES :PLB :PSirnons for Meta Thomas

Typist: CCook:x65225

Disk: WPThomas2:complain. wpd

 Nil??A                                  AMERICAN MEDICAL PEER REVIEW ASSOCIATION
 1140 Connecticut Avenue, NW   �   Suite 1050 � Washington, D.C. 20036. 202/331-5790 . FAX: (202) 833-2047

 September 8, 1995



 June Gibbs Brown

 Inspector General

 Department of Health & Human Services

 Office of Inspector General

 330 Independence Avenue, S.W.

 Washington, D.C. 20201


Dar   Ms. Brown:

On behalf of the American       Medical Peer Review Organization (AMPRA) -- the trade
association representing the nation’s network of peer review organizations -- I appreciate the
opportunity to review the draft inspection report, “The Beneficiary Complaint Process of the
Medicare Peer Review Organizations.”.

While AMPRA generally agrees with the philosophy of the report, we offer specific comments
and suggestions on the matters described below

Require PROS to respond substantively to the complainant. This is the standard to which the
Joint Commission on the Accreditation of Healthcare Organizations holds hospitals
accountable. 2%e HCFA should give this the highest priori~.

       Responding substantively to a complaint has always been a delicate and complex issue
       for the PRO community and indeed all who engage in medical peer review. While we
      ail sympathize with the beneficiary who wants to be fully informed about the results of
      the investigation of his complaint, such disclosure has serious ramifications for the
      conduct of peer review. Any new approach needs to be considered thoughtfully and
      carefully before a decision is made. Therefore. we recommend that changes be made
      thorough the reguia~ory process.

      First, AMPRA supports the need to provide beneficiaries and their families with
      substantive feedback while maintaining the due process provisions currently in place
      for handling quality concerns, i.e., an appeals process. In addition, the response from
      the physician on the PRO findings could be forwarded to the beneficiary concurrently
      with the PRO’s report. Finally, if fill disclosure is implemented, AMPR4 recommends
      expansion of existing immunity protection for PROS from civil suits.

      While full disclosure is advocated for the beneficiary, such a decision could harm the
      provider relationships which PROS have formed as part of the Health Care Quality
      Improvement Program (HCQIP). A concerted effort would have to be made to increase
      the awareness and support of the providers, physicians, and plans in regard to this
——




              matter. AMPRA would welcome the opportunity to participate in any discussions to
              seek an improved process.

              Finally, to our knowledge, the Joint Commission does ~ have a standard which holds
              hospitals accountable to respond substantively to complaints about quality of care issues
              in the manner which this report recommends.

     Identlfi cost-e~ective ways to enhance beneficiaries’ awareness of PROS and the complaint
     process.

              As has been pointed out in previous studies conducted by the Office of the Inspector
              General (OIG), there exists a lot of room for improvement in the ways beneficiaries are
              made aware of their rights. HCFA is currently working with the PROS on this topic,
              and PRCS would welcome additional opportunities for iiexibiiity in their outreach
              activities. AMPIL4 would be pleased to be to be part of such efforts.

     Streamline the complaint process.

            AMPRA agrees that there are many efficiencies and economies which can be built into
            the complaint process to afford a speedy response to the beneficiary. Potential change
            could simply be the by-product of a revised disclosure policy.         For example, if
            physicians   were made aware of the fill disclosure        requirement   in the initial
            correspondence to them, the response time fiarnes to the beneficiary could effectively
            be shortened by 30 days.

           AMPRA would also like to point out that, while the random sample review has been
           eliminated, the improvement efforts initiated through HCQIP projects have the potential
           for greater impact by improving care and protecting beneficiaries on a broader scale
           than does review of an individual case.

  AMPRA recommends               that the Health Care Financing Administration     (HCFA) form an
  improvement team to address the aforementioned         issues and increase the effectiveness of the
 beneficiary complaint process. The improvement team -- at a minimum -- should consist of
 the follow@       iC~itXtxlt~tiVt3S:      .LUWW;     FRO leadership     and applicable     personnel;
 malpractice/legal   expert; members of applicable trade associations (i.e., AMA, AHA. AARP,
 JCAHO. GHAA/AMCR.A, etc.). HCFA, and OIG.

 Again. we thank you for allowing us the opportunity       to comment.    Please feel free to contact
 me at 202/331-5790 should you have any questions.

 Sincerely,


A4?i’liif?
Executive      Vice President
 AmericanMedicalAssociation
 Physicians dedicated   to the health ot’ Mer]ca




 JamesS.Todd.
.MD                  515NorthStateStreet    312464-5000
         VicePresident
 Executive                         Chicago,
                                          Illinois60610   312464-4184
                                                                    Fax



 September 11, 1995

 June Gibbs Brown

 Inspector General

 Department of Health and Human Services

 330 Independence Avenue, S.W., Rrn. 5250

 Washington, D .C. 20201
                                                 I

 Dear Ms. Brown:


The American Medical Association (AMA) greatly appreciates the opportunity to respond to the
recommendations contained in the Office of Inspector   General  (OIG) reporr. The Benefrciarv
Comcdaim Process of the Medicare Peer Review Organizations. We believe that it is essential for
patlen[s to have an opportunity to express their concerns about the quality of care they receive
from any provider of health care services, and that when problems of quality are identified they
are addressed and corrected. However, just as the rights of patients must be observed and
protected, so must we protect the rights of physicians and other providers of medical care.

The resolution of concerns raised by patients should be done in a fair and equitable reamer that
protects the rights of privacy and confidentiality of those being investigated. While the ALMA
agrees that, if possible, the complaim process should be streamlined, it must not be at [he expense
of denying full due process to the provider whose services are being examined. Only after
affording the physician his or her full due process rights should the patient be provided a
substantive response to his or her complaint.

The PRO Fourth Scope of Work correctly and appropriately attempts to improve the overalI
practice of medicine by analyzing patterns of care and outcomes and by sharing information with
the medical community while moving away from the prior punitive approach. We are pleased
that the new Fifth Scope of Work, which will provide the future direction for the PRO program,
continues to emphasize cooperation and education for those providing medical care. It would be a
serious mistake for the PRO program [o revert to a more punitive approach (as suggested by the
OIG) in an attempt to change behavior by setting aside the rights of the individual physician
through eliminating the physician’s consent to disclosure.

The A!hl.Ahas no objections [o a PRO describing what it did to investigate a complaint, what the
investlgacion revealed (including whether a quality-of-care problem was confirmed), and what
action [he PRO took based on the complaint, but not until the provider of services has been
afforded a full opportunity for due process. We believe, however, that any change in current
physician disclosure regulations must be accomplished through the usual no[ice and comment
process rather than by way of contract changes or manual instruction changes. Moreover, as it
considers changes, HHS must take great care not to undercut the educational, non-puni[ive
approach of the current PRO program. as well as the improving cooperative relationship between
PROS and the medical community.
      Page 2- June Gibbs Brown

 The AMA believes that prior to notifying the patient of the ou[come of a PRO investigation following
 a complaint about quality, the physician’s due process rights should be exhausted. EIements of that
 process should include:

         a written statement of the charges/complaint against him or her;

         adequate notice of the right to a hearing, his or her rights in the hearing, and a reasonable
         opportunity to prepare for the hearing;

         detailed disclosureof the evidence and witnesses against him or her sufficiently in advance of
         the hearing to enable preparation of the defense;

         a fair, objective, and independent hearing,, with the right to ask questions of the panei
         members and of any hearing officer designed to reveal bias or prejudice, and the right to
         challenge the impartiality of any member or hearing officer;

         the right to be represented by an attorney or other person of the physician’s choice;

         the opportunity to be.present at the hearing and to hear all of the evidence against him or her;

         the opportunity to present a defense to the charges, including, but not limited to, the right to
         call, examine and cross-examine witnesses;

        a presumption of imocence and an assurance that the hearing body shall not render a decision
        against the physician unless the evidence produced at the hearing clearly supports that adverse
        determination:

        a hearing within a reasonable proximity of the location of the physician’s practice; and

        a hearing which protects the imeres[s of the physician’s patients, and the public in quaiity
        pauem care.

The ALMA isalso concerned about the possibility of well-meaning but erroneous referrals to [he PRO
& & L-d”dl’ Uh; ~ih”lti~” L~~~~l&lin\”.$JYISY
                                            X J&-L’U?CIYIllAYLhliUAIi~ c&” LV WiYal’ ukii” cilid .%25S” LXI’

constitute poor quality care, there is a significant possibility that a patient’s genuine concerns may
lead to a referral to the PRO for care which does not reflect a quality problem at all, and which in
fact is entireiy appropriate. Adhering to proper due process provisions assures that no information is
communicated to the patient until the physician has had the opportunity for a full and open hearing on
the nature of the complaint.

We believe [hat HCFA should be as interested in protecting [he due process rights of individual
physicians as they are in providing substantive follow-up to individual patients. The AMA would
welcome the opportunity    to work with HCFA and the patient community in reviewing and
commenting i:. advance on the proposed contents of any letter sent to the patient by the PRO about
the quality of a physician’s services. It is important that all communications with the patient
regarding the complaint be handled in a nonbiased and nonprejudicial reamer to protect the rights of
the physician while the case is being investigated.
     Page 3 -   June    Gibbs Brown

We concur with the OIG that a lack of a timely response to a patient’s complaint may serve as a
deterrent to a patient’s willingness to refer complaints to the PRO program. We believe that it may
be possible to find more efficiency in the review process by performing some s~eps of the review
process concurrently, but the program must not compromise the physician’s opportunity for due
process in pursuit of more timely reviews.

Physicians have had, in large part, a positive reaction to quality review process enumerated in the
PRO Fourth Scope of Work. The AMA is pleased that HCFA incorporated many of our
recommendations for improving the quality review mechanisms of the PRO program. As I indicated
earlier, we believe the Fifth Scope of Work builds on the positive changes of the Fourth by increasing
the level of collaboration among PROS, hospitals, and physicians on quality improvement efforts.
The emphasis on internal quality improvement which uses pattern analysis is to be commended, rather
than a punitive approach that addressed individual clinical errors.

The AMA strongly believes that physicians must continue to play an active role in any public or
~irate sector effort to develop national medical quality and performance standards. And that when
individual problems of quality are identified, they mus[ and will be addressed bu[, it must be done in
a way that respects and enforces patient and physician confident iali[y and without abridging the due
process rights ot’ individuals.

Once again. I want to express my appreciation for the opportunity we have had to comment on this
process. The AMA wants [o continue to play an active role to ensure that physicians’ perspectives
are part of the PRO process.

Sincerely,

                       J.   y~         , %@

ames S. Todd, MD
    September 27, 1995                                              ,.





    June Gibbs Brown

    Inspector General

    Dep@nent of Health & Human Services

    OffIce of the Inspector General

    330 Independence Ave., S.W.

    Washington, D.C. 20201


    Dear Inspector General Bro~:


  Horace Deets has asked me to respond to your request for comments on the draft report,

  “The Beneficiary Complaint Process of the Meclicare Peer Review Organizations.” We

  appreciate the opportunity to comment. AARP has long supported the effective

  implementation of the PROS’ complaint authori~y, and believes that yow report is a great

  service to the beneficiary community. It is useiiul to be reminded of the Congressional

  mandate regarding PRO consideration of beneficial complaints:


             ‘The organization shall conduct an appropriate review of all written complaints

             about the qutdity of services ..... not meeting professionally recognized standards

             of health care .... The organization shall itiorm the individual of the

             orgtization’s    final disposition of the complaint.”


 In light of the elimination of random sample record review by the PROS, the process of
 investigating and responding to beneficiary complaints assumes even greater importance
 as a means of protecting beneficiaries from poor quality care.

Our specific comments follow. We welcome the report’s recommendations, and offer
suggestions for some additional ones. We also raise a few questions of clarification
about the report’s findings.

                           Comments on the Recommendations

�     Require PROS to respond substantively                           to the complainant

The OIG recommends that HCFA either: (1) amend the PRO regulations to eliminate the
requirement that physicians consent to disclosure before providing feedback to
complianants; or (2) issue contract modifications or manual instructions calling for

.%neric3sl   .+ssociariun of Retired I’crwns   60]   E   Strcc’t,    X.’!v..   \l”dlir;sym,    D.C.    20049     {202”:1
                                                                                                                     4;4-2277
      Eugene 1. Lci-.rinmn      !?-uin’tf::                                      H   cm~c: B. Lhrs    Etm/rirc   I)irmmr
     Inspector General Brown
     Page 2

     substantive responses to complainants. We support both recommendations, both of
     which are consistent with N      policy, but feel that the latter approach would be most
     expeditious.

  We have long believed that the confidentiality regulations have a chilling eff6ct on the
 beneficiary complaint process: The fact that beneficiaries have no assurance that they will
 ever receive a substantive response to their complaint cannot help but serve as a deterrent
 to ~gistering one. Those beneficiaries who do voice complaints, and whose physicians
 thti refhse to consent to disclosure -- which happens in 87 percent of cases when there is
 a confirmed quality problem -- likely feel frustrated or even an~ at the lack of
 meaningfid response. Such a situation serves to undermine overall beneficiary
 confidence in the PRO program.

 While we recognize that many physicians and hospitaIs have serious concerns about
changing the coti]dentiality regulations, the finding that over half (59 percent) of the
PROS smeyed viewed these regulations as a major barrier to a more effective complaint
process is compelling evidence that the regdations bear revision. In addition, the report
notes that at least one PRO has been successful in gaining physicians’ consent in a
majority of cases, even when the complaint involved a conilrmed quality problem. It
would be a valuable addition to your final draft to indicate any specific methods used by
that PRO. This finding suggests that, if regulations are revised, PROS will be able to
respond substantively (e.g., according to the OIG’S definition of what constitutes a
substantive response) without alienating the physician community.

 In order to help allay f=s among the provider community that these responses will be
used unfidrly against them we suggest:

�	     permitting physician responses to PRO findings to be attached as part of the PRO
       response to the beneficiary. This practice would parallel that used by HCFA in
       attaching voluntary hospital comments when it released the hospital mortality data.

.	     developing a recommended response letter that informs the beneficiary of the final
       disposition of the complaint without becoming tantamount to a verdict in malpractice
       litigation.

We also urge thatproven quality of care findings be referred to other oversight entities as
required by Memoranda of Understanding entered into by PROS in the Fifth Scope of
Work.
    Inspector General Brown
    Page 3

    “	 IdentifJ cost-effective ways to enhance.h’fedicarebeneficiaries’ awareness of
       PROS and the complaint process.

 We strongly support this recommendation, which is consonant with AARP policy calling
 upon HCFA and the PROS to actively encourage beneficiaries to use the PROS’authority
 to investigate quality of care complaints. The extremely low volume of complaints
 (beWeen 8 and 164 per one million beneficiaries), coupied with the elimination of
random case review, jeopardizes the PROS’ ability to identi~ quality of care problems.
We agree that HCFA should give PROS more flexibility in conducting their outreach
activities, including permitting them to survey local beneficiaries and targeting outreach
to family members of beneficiaries as well & pre-retirees. We would like to offer any
assistance that AARP may be able to provide in this effort. We finther believe that the
PROS’ budgets should be increased to permit concerted outreach efforts.

The fact that only 23 percent of beneficiaries surveyed were aware of the existence of
PROS is, of course, a major barrier to the complaint process. We are curious if the
beneficiary smey reveaIed any other barriers. Were respondents asked if they would be
tiling to lodge a complaint, or if they would he reluctant to do so, and the like? Any
data bearing on this issue from the beneficiary sumey should be reported.

�     Streamline the complaint process.

The current timeline for PRO review and response to beneficiaries, as outlined in the
PRO manual, is fa too long. For example, the process can take up to 250 days to respond
to identified quality concerns in cases requiring a re-retiew. Over two-thrids of the
PROS surveyed (68 percent) felt constrained by this lengthy process. Moreover, it is
quite feasibte that beneficiaries who are seriously ill may no longer be alive by the time
the review is completed.

We support the OIG’S recommendation to HCFA to find ways to expedit the process,
e.g., by examining ways other bo~les conduct complaint reviews and identifying and
sharing promising approaches taken by individual PROS. For example, ail PROS should
be encouraged to use a case management approach as is being used with one PRO, and to
regularly communicate with beneficiaries throughout the process.
     Inspector General Brown
     Page 4

                                    Comments on Findings


     Page 1. The text states that OBRA-86 requires PROS to review all writte~ quality-related
     complaints received from Medicare beneficiaries. However, the footnote to which this
     statement refers (#4 in Appendix E) does not list physician offices as one of the settings
     for which PRO review is mandatory. This should be clarified.

    Page 3. We suggest adding an Appendix which lists the total number of beneficiary
    complaints received, and gives more descriptive information about the nature of the
    complaints reviewed, especially those that resulted in confirmed quality probIems. For
    example, the report states that about two-thirds of these problems invoived physicians,
    and about one-third hospitals. Were quality of care problems found in any other settings,
    e.g., in home health or HMOS? Such information would provide more context for
    interpreting the report’s fmiings.

    Page 5. Based on the discussion here, the OIG may wish to state that PROS should
    establish explicit poIicies to encourage complaint referrals from physicians, hospitals, or
    medical boards.

    Page 6. The majority (59 percent) of PROS cited difficulties in making beneficiaries
    aware of the complaint process, It wouid be helpful to know what specific difficulties
    they encountered. If this was asked on the PRO survey, it would .usefid to report the
    responses here.

    Thank you again for the opportunity to comment. If you should have any questions,
    please contact Mary Jo Gibson in AARP’s Public Policy Institute at (202) 434-3896 or
    Cheryl Matheis in Federal Affairs at 434-3774.

*   Sincerely.
            .W




Uohn Rother
 Director, Legislation
    and PubIic Policy
 —.




Coalition for Consumer           Protection       and QuaIity        in Heakh Care Reform
                    1275 K Street N.W., Suk?9W Wa$hiniww DC 20005
                           (202)789-3606   Fax (202) 842-1 1S0




                                          September 15, 1995

      Ms, June Gibbs Brown

      Inspector General

      Department of Health and Human Servictx

      Cohen Buiiding, Room 5250

      330 Independence Ave., S,W.

      Washington, D.C. 20201


      Dear Ms. Brown:

              Thank you for the opportunity to review and comment on your draft inspection
      report, “The Beneficiary Complaint Process of the Medicare Peer Review
      Organizations. ” I am pieased to provide to you the comments of four of the Consumer
      Coalition’s members, and I know that others in the Consumer Coalition have provided
      their comments to you indepcndcntiy.

              Piease keep our Coalition in mind co review and comment on other reports that
      you produce in the areas of health care consumer protection and quaiity, We would
      aiso be wiiiing to assist with your studies in any other ways that you consider
      appropriate,

             Thank you again for inciuding us and for your efforts to improve these
      important heaith care programs.

                                          Sincerely,

                                        /& bJ#=L$z_
                                          Brian W. Llndberg
                                          Executive Director
                                        Center fbr
                                        Health Care Rights
                       /    A    step      ttt   tbe        rdgbts        dfrect      ion




TO:             Brian IJndberg

FROM:           Geraldine Dallek, Center for Health Care Rights

RE:             The OIG Drafl Report on The Beneficiary ComplaintProcess of the Medicare

                Peer Review Organizations
DATE:           September 5, 1995



The OIG repofi provides a thoughtful critique of the PRO complaint system and otlkrs some
criticallyimportant suggestions for reform of the system. Given the likelihood of some basic
reform in the Medicare pmyam and the potential fcwsubstantial increased Medicare enrollment in
manased care, the repon is especially timely,

What follows are some specific comments on the report and additional suggestions for improving
the PRO complaint process.

NEED FOR A PRO PROCESS RESPONSIVE TO BENEFICIARY COMPLAINTS

The Center for Health Care Rights (CHCR) provides education+counseling and legal services to
over 15,000 Medicare bencficimiesannually. With the exception of hospital discharge cases, we
refix few Medicare beneficiariesto our PRO (CMRI), The reasons are two-fold:

       (1)	    The inability of PROs to Provide Comdainants with Information on the
               Disposition of Their Comdaints

As the OIG notes, the lack of a meaningfidPRO response to beneficiaries’complaints is

incredibly fimstrating, Indeed, it is such an impedimentto the review process, that I believe unless

it is ~hanged, MK)s will never be able ?Qdlkcthdy represent Medicare beneficiaries, Nor wi]l

PROS,regardless of outreach efforts, be sent more than a trickle of complaints.

       (2)	    The Lemzthof the Review Process and Inabilitvof PROSto Respond in a Time&
               Manner to Emer~encv Cases

As the OIG also noted, the review process is too lengthy. I am especially concerned about the
lackof formal procedures fur the PRO to investigate emergency cases where deIays could result
in serious harm to a beneficiary. Agai~ with the exception of hospital discharge cases, CHCR
does not view a complaint to the PRO as an effective way to obtain redress for our client
concerns, especially those relating to denials of care by HMOS.




                      520 S. Lafayette Park Place, Suite214    a Los Angeles, CA 90057

                           213/383-45   19 � 800/824-0780      m Fax: 2 13/383-4598
 Lindberg
 page 2


 NEED FOR GREATER SPECIFICITYON THE COMPIx41NTPROCESS

 The OIG report contains a number of recommendationsfor changes in the PRO complaint Syst%
 inoludingspecific requirements detailingto the complainantwhat it did to investigatethe
 complaint,the outcome of the investigation andanyactiontalmnby the PRO.

In addition, I believe the 010’s repoti should hiclude recommendations to HCFA on substantive
additional changes in the complaintsystem including: recommended time ties   for handling
complaints,protocols for whoinvestigatescomphdnts;standardsfor what typesof complaints
shou~dbe handled by the PROS;standards on how comphdnts should be investigated; ant as
discussed below, reporting of outcomes of complaint investigations to the public.

Currently, the PROS do not seem to investigate cases when care is denied, focusing instead on the
delivery of poor quality of care. We believe [hat denials of appropriate care are, by definition,
poor quality care and should be investigated by

LACK OF COORDINATION BETWEEN THE PROS, HCFA AND STATE
REGULATORY AGENCIES

The CaIifomia Department of Corporations (DOC), which regulates HMOS in the state, will soon
inaugurate a hot line for HMO consumer complaints. DOC has told CHCR that it plans to refer
all Medicare HMO complaintsto HCFA Region 9

We do not know how HCFA will handle the large number of expected calls. HCFA and CMRI
need to establish protocols for handling these complaints and sharing complaint information.

OIG should include in its report specific recommendations for ways that the PROS, HCFA and
state agencies should coordinate the handling of beneficiarycomplaints and share complaint
information.

LACK OF PUBLISHED PRO COMPLAINT DATA

In addition to informing Mividual complainants of the outcome of the PRO’s investigation of
their complaints, PROS should be given authority to publish complaint data on an annual basis,
including;

       +	     The number of complaints by provider type (FFS, Physician, Hospital, HMO,
              Home Health Agency) and types of complahts (e.g., denials of care, poor quality
              care, etc.),
Lindberg
page 3


        +      Outcome of complaints by provider typq

        +      The names of institutional providers ( HMOSand when applicable, contracting
               providergroups, hospitela, home health agencies, etc.) for whom complaints were
               found to be, following an investigatio~ justi.tlable.

OUTREACH THROUGH GROUPS REPRESENTING MEDICARE BENEFICIARIES

All states have fderally finded ICA programs which could be a potential source of beneficiary
complaints. A number of other organizations also represent the interest of Medicare beneficiaries.
However, for the reasons stated above and a sense among some beneficiary groups
that PROShave not, in the past, been responsive to beneficiaryconcerns, PROSwilf have to make
a special effort to gain the trust of some of these organizations.

I believe that complaints from bem%ciariescan bean effective source of monitoring quality of
care.  However, heavy relianceon complaints will not produce an effi?ctivequality monitoring
system unless the entire PRO complaint system is changed to meet beneficiary needs.

Thank you for the opportuni& to comment on the OIG’S drafl report.
—




                             NATIONAL SENIOR CITIZENS LAW CENTER
                                            1815 H STREET,N.W., SUITE 700
                                                  WA5HIffiTON,          D.c. 20006

                               TELEPHONE         (202) 887-5280         FACStMILE (202) 78S-6792

WA!WINCTON, o c
DUR70N D, mm
EXECUTIW
     mmc-roa
     September 14, 1995



     Brian Lindberg

     Executive Director

     Coalition on Consumer Protection

            and Quality in Health Care Reform
     1275 K Street, N.W. , Suite 900
     Washington, DC 20005

              Re:	     Comments on OIG Report on Beneficiary Complaint Process of the
                       .Medicare Peer Review Organizations

    Dear Brian:

            Thank you for the opportunity to submit comments on behalf of the National
    Senior Citizens Law Center (NSCLC). Over the years, NSC.ZC has been involved in
    nuxnerw+s matters involving quality of care issues and Peer Review Organization
    (PRO) review, particularly issues of premature hospital discharges, For the most
    part, we have found the l?RO review process to be unsympathetic to beneficiaries and
    theprocess   ofobtaining  reviewcumbersome, even when working through an
    experienced advocate. 111addition, the Iack of a detailed and substantive response to
    beneficiaries complaints has impeded our ability to advocate on behalf of our clients.

     1.     & a general matter, there is still a question among beneficial                                advocates
    about whether the PRO process should be maintained as it. relates to                                 bene-ficiary
    coverage and quality issues. Some advocates are of the opinion that                                  the process
    delays meaningful review before a hearing officer, und administrative                                law judge
    review, etc, as appropriate.

    2.     Hospital notices explaining PRO review procedures have improved over the
    years, Nonctheiess, beneficiaries do not always receive these notices in a timely
    fashion, nor do they always receive sufficient instruction from hospital staff about the
    importance of these notices.

    3.      We applaud the notion of expanding PRO outreach efforts in terms of
    publicity about the PRO review process. We wotdd be happy to work with the


         La   ANGELE2 ~.   S1.RTE4230, 777 SO~      ffilJER~       STREET,102 ANGELES, (XLIFORNL4 9W17   �   (213) 23&3890

                                                               s
NATIONAL SENIOR CITIZENS lAW CENTER




    Brian Lindbcrg
    Page2
    September 14, 1995




    Health Care Financing Administration (HCFA), the PRO community, and others in
    exploring ways of reaching Medicare beneficiaries to tell them about the role and
    function and vaIuc of the PRO process as it is improved.

   4.     We agree that the low number of beneficiary complaints being filed with the
   PRO is a problem. The problem is a function of poor outreach, bad beneficiwy
   experiences with the PRO system, and ineffective notice systems within hospitals.
   We have long sugg~stcd that ho~pilalsbe reqt.drcd to play a larger role in the patient
   education and outreach efforts about the PRO process, Wc suggest theuseof notice
   boards in hospitak, presenting information about the PRO process at several points
   during a patient’s stay in the hospital, and the use of patient advocates or a hospital
   ombudsman to augment education        andoutreach  efforts.
   5,      Hospital utilization review committees should involve Medicare beneficiaries
   in all upects of utilization questions. This would given benefiaaries greater access
   to the PRO process and increase beneficiary comfort lcvels in using the PRO review
   process.

   6.      It would also be useful if PROS were required to publish and make available to
   the beneficiary community statistical information about the number, nature, and
   disposition of complaints received. 7%1sinformation could be made available in
   hospitals, at senior centers, and to individuals upon request.

          Again, thank you for the opportunity   to comment.

   Sincerely,



   Alfred J. Chipiin,   Jr.
   Staff Attorney
                                               clWTER FORMEDIOAM          ADVOCACY, lNC-
                                                      wSOUIIHBRNAR120NA      LRQALAXD
                                                           MB. SIWADW# BWD.
                                                        TVCOON,ARQ4YNA~l.1~
                                                     (6@ 6WM65            1 (BW) !Mw7W
                                                             FAX(60Z) 620-0449


AlluNwv8
  CMARU?S
       C, MULJ14
  Juol?14        S7EIN   NULIN
  0-0       S.    �LI?OANI
 WALTCR R. KCCNAN
 USMMA PAW!L+4ARVIL


or couNscb
 9ALLV 14AUr WIL80N                                               September        7,    1995



                  Brian     Lindberg

                  Executive     Director

                  Coalition     far Consumer      Protection

                  and Quality      for Health     Care Refo~

                  1275 K Streett        N.W.

                  Washington,      D.C.    20005


                  Dear Brian:


                         Thank you for giving me.the           opportunity     to comment on the OIG
                  draft    inspection    report,  “The Beneficiary          Complaint   Process    of the
                  Z4edicare     Peer  Review” OrganlzatiozsX’!             MY comments”on      the  draft
                  report, in no particular        order,’ ure, as follows:
                                The OIG and PROS are,correct
                                 1.                                    in concluding     that   randont
                  reviews    of    sample    medical    records   were    an ineffective       way to
                  improve    quality      of   care,’   and that responding          to beneficiary
                  complaints     is a far better      way to uncover problem areas,           (Why did
                  it take them so long to figure            this out?)

                          2.    We should urge the PROS to devote  much more attention to
                  investigating      instances of underservice by HMOs~ as this is the
                  area     in which   Medicare beneficiary  advocates find the greatest
                 pzoblexcs.
                         3.    Closer      links     should be developed              between   PROS and
                 Medicare beneficiary           advocates.       Until now, many PROS have been
                 quite unresponsive          to     beneficiary     advocates        in their     regions.
                 Greater contact       would help       increase   the number        of complaht~       they
                 receive    and sensitj.ze       them to beneficiary        interests.

                          4.     PROS     should        not   rely      only     on     medical       records        i.n
                 investigating          beneficiary         complaints.           Medical       Tecords”     do not
                 reliably       document      instances       of poor      quality      medical      care     (after
                 all,     .who;:creates     the~zecazds?)          ,..Me.dical     :rec,ords     are even less
                 likely      to document      si,tu,ations    where the problem was.that                not enough
                 medical care was provided, which is the most common problem where

                 HMOS are involved,




                                      (mmI?ALoFFIcE:
                                                 l?o.mxsso

                                                         wlumwvmc,cToez2a                (209)456-7’WI
Brian Lindberg

September 7, 199S

Page 2


        5.  The report’s statistic that PROS have found confirmed
quality of care problems in 10 to 15 % of complaints is shockingly
low. Beneficiaries rarely go to the trouble of lodging           complaints           ~
that are not justified. This low confirmation rate may result from
a number     of factors:      PROS are gOnerally       too solicitous        of
providers;    PROS can not obtain       all of the relevant     facts     from
suedical records;   PRO quality   of care protocols in many case? simply
do not measure underservice.       Beneficiaries will not bother lodging

complaints unless the resulting investigations are more balanced.

                                                                              ,.

       6.   Many observers have noted that PROS do not seem to be the
appropriate    agencies to monitor qqality of caref since they are
also entrusted      by HCFA with the job of performing              hospital
utilization review. This inconsistency        in their  two hats should be
removed.
     7.    HCFA should work on developing a penalty System that
gives beneficiaries  an’ incentive for ,referring their problems to
the PROs--e.g., monetary fines levied in response to deficiencies
that     are     found   in health   care.
      8.   PROS should work with other agencies that review medical
quality	 such as licensing boards and HMO regulatory agencies to
create stronger incentives    for providers to provide adequate,
quality care.


         I am sorry     to have been slow in getting   these     comments   to you.
Please     let     me know If I can be of further    assistance.
                                                 Very truly yours,


                                             <      >

                                                 Sally H   t Wilson

                                                 Attorne
                                                 ~F
       at Law


SHW:md

           Citizen Advm~                                                Center
                    A tiining, R~         and SWport Network for Public
                   Membem of Hbalth Clzre Regulatory and Gove?ningBou@s
                                                 September     14, 1995



Mr, Brian Lindberg, Executive Director
coalition for Consumer protection and
  ‘Quality for Health Care Reform
1275 K Street, NW, Suite 900
Washington, DC 20005


Dear Brian:

        Thank you       for asking CAC ‘ to         comment ‘on the       OIG draft
inspection repoxt entitled, “The Beneficiary Complaint               .. . pro--    of
the-Medicare       Peer Review 0r9an~zationa          (PRO=) -“ ‘A? .You ‘now’   ‘c
is a unique support program for the thousands of public members who

serve on healtih care -regulatory boards and governing bodies as

representatives        of the  consumer    interest.        Whether    appointed   by
governors       to serve on regulatory or other health policy boards or
selected by private sector institutions and agencies to serve on
boards or advisory panels, public members are typically in-the
minority  and are usually  without  the resources  and ,technlcal
support  available to their counterparts   from professional     and
business   communities.      CAC   is   a not-for-profit   501(C) (3)
organization   created to serve the public interest by providing
research, training, technical support, and networking opportunities
to help    public    members  make   their contributions   Informed,
effective, and significant.


      One of our networks under the CAC umbrella is PRONET, made up

of the Medicare beneficiary members who serve on the boards of

directors of all PROS.            At PRONET’S annual meeting in Salt Lake

City,   Utah,    on September     28, 1995,     these    beneficiary         members    will
be discussing      the draft     report    and most likely           issuing    their    own
comments    on it.     However,    because    of the deadline            you told     us you
were operating       under,   we wanted     to give you the comments of CAC.
Please understand        that  the CAC comments         may or may not be similar
to those    that   PRONET will     make later      this   month.         I will   send you
a copy of whatever results from the PRONET meeting.

     We appreciate your asking our views. AS one of the members of

your coalition, we are pleased to respond, since we closely observe

the PRO program.


     The    OIG        makes    three  findings,   and                offers       three
recommendations.        we would like to comment briefly              on each.




               1424Six&enthStree~
                               NW. Suke106.Waahi-n@On,

                                                     DC20036

                                       NAX(202)2654Y564

                     PHONIU(202)462-1174

  PIG Findirau     #l.	           Complaints to PROS can be en important source
                                  for identifying quality-of-car. problems.

 commeJ&.   We agree. AS you know, we also are deeply involved with
 the operation of state health licensing boards,    Both the PROS and
 the licensing boards can do a much better job of protecting the
 public health and safety if they have direct access to the users of
 health services,    while PROS can and do have the authority to
 review medical records of patlenta, that is not the same as hearing
 from patients who have had an adverse experience. Granted, some
 complaints are frivolous, and some do not really fall within the
 PRO’s authority, Neverthelessr enough of them do allege actions or
 inactions that should be investigated and, if substantiated,   dealt
 with in an appropriate manner.

 019 Findina #2 s	             Modicaze baneficiarie- are often unaware 02
                               tlmir opportuuitiem to complain to PROS about
                               the quality of tlaoir medical ca=e.

 Comment.      The 01(3 finding   does                 not surprise      US.    Most     studies Show
 that  the     public  is uninformed                     as to the      existence        of PROS and
 licensing     board      and the        authorities        uizder which     they   operate.        ThiH
 lack of awareness is a problem that cannot be corrected overnigh~,
but the effort should be made. If one examines the budgets of most
PROS, one will find precious few dollars allocated to beneficiary
education    and outreach.       CAC did a study a while back           (copy
enclosed) that examined PRO outreach programs.            As you will see,
some PROS spend as little as $5,00 0 a vear on outreach (Table 25,
page 72).      Almost half   the    PROS (24)   had outreach    budgets    of
between   $5,OOO and $50,000.        Not a single   PRO had an outreach
budget  of   over $100,000.      Some PROS have developed imaginative
outreach programs to do a better job of beneficiary              education.
Furthermore, the Fifth Scope of Work in HCFA’S contracts           with PROS
elevates    outreach   to a higher priority than it has had in the past,
But , until      there  is a much larger financial     commitment,      these
programs  are unlikely              to     overcome        the   lack   of   knowledge      found    by
the OIG and others.


OIG F-       ixuf#~.	         As it works now, the complaint process has
                              some flaws that undermine its effectivezxessg

                              o           Laak of substantive            response

                              0           Faw complaints

                              0           Langthy process


Comment.    Again,      the OIG finding       is disturbing      but not surprising.

If few beneficiaries            know that they have a right to complain

(Finding  #2),     then     of course   there    won’t     be very    many complaints

registered.        If     those   who do complain           get    a non-substantive

response, and if chat non-substantive              response     takes   an unduly     long


                                                       2
 time to arrive, then the complainant is unlikely to ever complain
 again,  and is likely to discourage friends and relatives     from
 registering complaints of their own,

          In eummary,      the 01(3 finds     that   complaints   can bai an important
 source      of    information      to   help      PROS identify      quality     of    care
 problems,        but   very    few beneficiaries know about              the   complaint              .
 process,       and those      few who do use the          system   find     it seriously
 flawed and non responsive.

       The   OIG        offers   three            solutions,           in    the     form        of

 recommendations,       namely;

 b	       !rheHCFA should work with PROS to identify cost-affective                         waym
          to correat the flawe in the complaint proceos.     Toward                         that
          end, FICFA shoulds

          o	   Requ3x=   PROS to respond     substantively    to the
               complainant.   TMs’im     the standard  to which the
               Joint CommissioA on the Mcredltation        of  Health
               Care Organizations    holds hoepitals    accountable.
               The HCFA should give this the highest priority.

          o	   Identify cost-effeotive ways to enhanca Medicare

               beneficiaries’ awareness of PROIYand the complaint

               process.

          o    Streamline     the mxmplaint         process.


        We support    eaah of these        recommendations,      and find       them on
target.     In addition,       we would add a recommendation         that     PROS not
only be allowed     more flexibility        in conducting   outreach     activities,
but that    these   activities      be allocated     higher  levels    of funding.

        We would also recommend that as part of streamlining the
complaint process,   PROS be given specific deadlines for each phase
of complaint handling -- fox example,       14 days   to acknowledge
receipt    of the  complaint;  30 days to complete a preliminary
investigation;         60     additional          days       to      complete      a    fuller
investigation    --    and be required       to    justify        each instance     where the
time    limits were     exceeded.

       Finally,     we believe   that 14CFA should regularly  compile
complaint    handling   statistics from all PROS and issue an annual
report describing their substance and their resolution.        A good
model would be the California Board of Medicine’s Annual     Report.

         CAC is aware that PROS have moved away from case-by-case
review and toward pattern analysis.      However, PROS still retain
authority to receive, investigate, and act upon complaints.       so
long as they have this authority, PROS should        be expected  to
exercise     it responsibly. Otherwise, PROS leave complainants with

                                            3

.




    a false confidence               that     their      complaints        are    being      handled
    appropriately.

            There    are  really      only two viable       choj.ce~;     either       correct     the
    deficiencies       documented        in the OIG report,        or remove       from PROS the
    responsibility for              handling    complaints,         reduce       their       budgets
    accordingly,    direct the funds to organizations better equipped
                       and
    or more willing to handle complaints effectively, promptly, and
    appropriately.
           Again, we appreciate this opportunity to comment.

                                                         Sincerely,





                                                  4
                              APPENDIX                     F

                                           NoTEs

1. The Institute of Medicine, Medicare:    A Strategy for Quality Assurance (Washington,
D. C.: National Academy Press, 1990).

2. Hebbeland McMullan to Executive Directors, Peer Review Organizations,
20 December 1994, Health Care Financing Administration, Baltimore, MD.

3. Other instances in which HCFA requires the PROS to conduct case reviews include
hospital-issued notices of noncoverage, referrals from HCFA or the fiscal intermediary,
adjustments to higher-weighted DRGs, and other limited instances.

4.	 The PROS must review complaints about the quality of care in the following settings:
fee-for-service inpatient hospitals; fee-for-service freestanding ambulatory surgical centers;
fee-for-service home health agencies, skilled nursing facilities, hospital outpatient areas,
and emergency rooms; risk-sharing health maintenance organizations; and services
received through cost-based health maintenance organizations. The PRO review is
mandatory for written, quality-related complaints about services received in a physician’s
office when the physician is a part of a health maintenance organization in which the
beneficiary is enrolled.

5. See 42 CFR 476.

6.	 The Health Care Financing Administration defines beneficiary protection under HCQIP
as comprising four key elements:

       1. A quality surveillance system. The HCFA defines surveillance as “an
       ongoing epidemiologic strategy to identify quality problems, structured by
       hypotheses about what the problems are. ” The HCFA further defines the aims of
       the quality surveillance system as targeting and supporting quality improvement
       projects by “finding and fixing unacceptable patterns as diverse as high rates of
       medication errors, high rates of unnecessary right heart catheterization, and
       systematic delays in providing antibiotics to patients with infections, ”

       2. Strategies to identify and intervene in instances of incompetent and
       impaired physicians and providers. According to HCFA, the HCQIP employs
       two methods to effectively identify and root out incompetence. First, physicians
       and hospitals who fail to participate in and improve as a result of projects will
       become “increasingly isolated and obvious. ” It states that “data collected in
       projects and shared on a confidential basis will become persuasive evidence for
       implicit peer pressure and for exclusion if that becomes necessary. ” Second, PROS
       will become more aggressive in soliciting and investigating complaints, “including




                                             F-1

      strengthened liaison with licensing and certifying agencies and existing local
      consumer protection and advocacy programs. ”

      3. A more comprehensive and informative approach toward resolving
      beneficiary complaints concerning quality issues. The HCFA states that
      “traditional peer review of individual cases will remain a key tool for investigating
      complaints. ” In addition, HCFA is revising its regulations to “provide more
      thorough and sensitive follow-up to beneficiary complaints. ” According to HCFA,
      the new rules and procedures for complaints “will permit (and HCFA will require)
      PROS to explain health care events to beneficiaries to promote understanding and
      encourage conflict resolution. ”

      4.� Enhanced beneficiary information activities. The HCFA is currently
      “exploring ways to improve educational and informational activities to ensure that
      beneficiaries are filly aware of their rights and opportunities under Medicare,
      including the right to have complaints about poor quality medical care investigated
      by the PROS. ”

(Gagel to Vladeck, 3 May 1994, “Beneficiary Protection Under the Health Care Quality
Improvement Program (HCQIP)--DECISION, ” Health Standards and Quality Bureau of
the Health Care Financing Administration, Baltimore, MD.)

7.� Health Care Financing Administration, “The Successful PRO in 5 Years, ” Baltimore,

MD, November 8, 1994.


8. This is based on our analysis of data representing 11 PROS’ beneficiary complaints

and the number of cases with at least 1 confirmed quality-of-care problem. Each case can

have multiple quality-of-care problems. For 20 PROS in our sample, we had number of

individual problems. When we calculate the rate for those 20 PROS, the result is within

the range of the case results presented: at least 10.5 percent to as many as

17.3 percent.


9. This PRO, from the low-population stratum, reported having received 13 complaints

under the fourth contract at the time of our survey.


10. The PROS’ responses to these systems issues also varied, and included action plans,

HCQIP projects, and consideration of sanction, among others.


11. Gagel to Vladeck, 3 May 1994.

12. We asked the PROS how many complaints that triggered a case review were also
referred elsewhere and listed the following choices: FI/carrier, managed care institution,
hospital, HCFA project officer, survey and certification agency, and other. Because a
PRO could have referred a single complaint more than once, we present both the most
conservative interpretation of joint referrals (16.7 percent) and the most liberal
(28.9 percent).



                                           F-2

13. Because the HCFAproject officer islkely torefer the complaint again, for example
to the appropriate survey and certification agency, the percentages shown may be under-
reported.

14. Thirteen of the 22 PROS reported having received referrals from physicians during
the fourth contract period. Nine of these PROS reported having received either a small
number or between 1 and 4 such referrals; 1 reported having received 6; and 2, 10 or
more. One PRO did not offer an estimate.

Eight PROS reported having received referrals from hospitals. Those who offered an
estimate reported having received between one and four referrals.

Six PROS reported having received referrals from State medical licensure boards. Those
who offered an estimate reported having received one or two, or a few.

15. When we asked the PROS to identify two outreach activities leading to the most
complaints, half the PROS identified local presentations.

16. Of the 13 PROS that judged reaching beneficiaries a major barrier to a more effective
complaint process, 4 were from the low-population stratum.

17. Five of the 22 PROS in our sample noted that, in some cases, the response to the
request for consent was pending.

18. The 5 PROS in the low-population stratum gained consent 84 percent overall
compared to 43 percent for the 17 PROS in the high-population stratum. The PROS in the
low-population stratum gained consent in 25 percent of the complaints involving confirmed
physician quality-of-care problems (3 of 12 such complaints) compared with 13 percent
for the high-population PROS (22 of 176 such complaints).

19. The 7 cycle-1 PROS in our sample received between 31 and 141 complaints per
million beneficiaries, a spread of 110 per million; the 7 cycle-2 PROS, between 50 and
164, a spread of 114 per million; and the 8 cycle-3 PROS, between 8 and 125, a spread of
117 per million.

20.Miscellaneous reviews account for 19.2 percent of the review caseload. Other
mandatory reviews, such as hospital-issued notices of noncoverage, account for 8.4
percent. After October 1995, the PROS’ review caseloads will include complaints and
other mandatory reviews.

21. Health Care Financing Administration, “Strategic Plan, ” Baltimore, MD, 1994, p.3.

22. Ibid, p. 17.




                                          F-3

